U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 3, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

American Hospital Association, et al. v. Norris Cochran,
Acting Secretary of Health and Human Service, et al,
S.Ct. No. 20-1113

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 10,
2021, and placed on the docket on February 12, 2021. The government’s response is due on
March 15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1113
AMERICAN HOSPITAL ASSOCIATION, ET AL.
NORRIS COCHRAN, ACTING SECRETARY OF
HEALTH AND HUMAN SERVICES

CHAD GOLDER
514 6TH STREET, NE
WASHINGTON, DC 20002
CHADGOLDER@GMAIL.COM
MARK D. POLSTON
KING & SPALDING LLP
1700 PENNSYLVANIA AVE., N.W.
SUITE 200
WASHINGTON, DC 20006
202-626-5540
MPOLSTON@KSLAW.COM
CATHERINE EMILY STETSON
HOGAN LOVELLS US LLP
555 13TH STREET, N.W.
WASHINGTON, DC 20004-1109
202-637-5491

